CERTIFICATE OF SERVICE
RICHARD LOUIS ARNOLD PHILLIPS,
Petitioner,
vs •
KEVIN CHAPPELL, et al.,
Warden, San Quentin Prison
Respondent.

)
)
)
)
)

I, the undersigned, hereby declare:

I am a citizen of the

United States; am over the age of 18 years; am a party to the
above titled matter.

My business/residence address is:

C-13/07
CSP SATF
P.0. Box 5242
Corcoran, CA 93212
and on below handwritten date, pursuant to Rule 29 of this Court,
I sent a true and correct copy of:
PETITION FOR WRIT OF CERTIORARI
to the below listed parties by placing same in an envelope,
postage prepaid, and placing the envelope in the institution mail
for processing in accordance with institution procedures for the
processing of outgoing inmate legal mail.
IAN M. ELLIS, Counsel for Defendants
California Deputy Attorney General
455 Golden State Ave., Suite 11000
San Francisco, CA 94102-7004
I declare under penalty of perjury:

The foregoing is true

and correct; this was executed on the /(fy~^day of September
2020, at Corcoran, California.

RICHARD LOUIS ARNOLD PHILLIPS
filing pro se

